HHS/OIG, Audit - "Audit of the Pension Plan at a Terminated Medicare Contractor, Wellmark, Inc.," (A-07-02-00023)
Department
of Health and Human Services
"Audit of the Pension Plan at a Terminated Medicare Contractor, Wellmark,
Inc.," (A-07-02-03022)
March 7, 2003
Complete Text of Report is available in PDF format
(957 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to evaluate Wellmark, Inc.'s (Wellmark) compliance
with the pension segmentation requirements of its Medicare contract and to determine
the excess assets that should be remitted to Medicare as a result of the termination
of the Medicare contractual relationship effective May 31, 2000.  Wellmark
was a Medicare contractor until its contract was terminated in 2000 and, as
such, was allowed to claim reimbursement for its Medicare employees' pension
costs.  Federal regulations and the Medicare contracts provide, however,
that pension gains, which occur when a Medicare segment of a pension plan closes,
be credited to the Medicare program.  Accordingly, we recommended that
Wellmark remit $1,353,036 in excessive pension assets to the Medicare program.